Ti

COCKLE

2311 Douglas Street Le ga l Brie f s E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-402
HOWARD L. BALDWIN AND KAREN E. BALDWIN,
A MARRIED COUPLE,
PETITIONERS,
Vv.
UNITED STATES OF AMERICA,
RESPONDENT.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 25th day of October, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE CATO INSTITUTE AND NFIB SMALL
BUSINESS LEGAL CENTER AS AMICI CURIAE SUPPORTING PETITIONERS in the above entitled case. All parties
required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
Karen R. Harned Ilya Shapiro
Luke Wake Counsel of Record
NFIB SMALL BUSINESS CATO INSTITUTE
LEGAL CENTER 1000 Mass. Ave., NW
1201 F St., NW Washington, DC 20001
Suite 200 (202) 842-0200
Washington, DC 20004 ishapiro@cato.org
(202) 314-2048

Subscribed and sworn to before me this 25th day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

are, EC Elite Qudia-h, Chae

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38783
 

 

 

 

Attorneys for Petitioners

Aditya Dynar New Civil Liberties Alliance
Counsel of Record Litigation Counsel
1225 19th Street NW Suite 450
Washington, DC 20036

adi.dynar@ncla.onmicrosoft.com

Party name: Howard Baldwin, et al.

(202) 908-6202

 

 

[aiomers for Respondent

Noel J. Francisco Solicitor General
Counsel of Record United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

Party name: United States of America

(202) 514-2217

 
